              Office of
              INSPECTOR GENERAL
              U.S. Department of the Interior

      INSPECTION REPORT




         Museum Collections:
   Preservation and Protection Issues
   with Collections Maintained by the
         National Park Service

Report No. C-IS-NPS-0008-2010                   January 2010
                                               ,--




                     United States Department of the Interior
                                    OFFICE OF INSPECTOR GENERAL
                                    CENTRAL REGION - DENVER FIELD OFFICE
                                             134 Union Blvd., Suite 510
                                                 Denver CO 80228


                                                                                 January 29, 2010

To:        Jonathan Jarvis
           Director, National Park Service

From:      Loralee Bennett;:3~ ~
           Deputy Regional Audit Manager

Subject:   Inspection Report - Museum Collections: Preservation and Protection Issues with
           Collections Maintained by the National Park Service (C-IS-NPS-0008-2010)

       The long-term preservation and future availability of artwork, artifacts, and other items
maintained in museum collections operated by the National Park Service (NPS) requires NPS to
minimize those factors that tend to shorten an object's life. As a result, we evaluated NPS
museum collections to determine whether NPS was adequately preserving and protecting its
artwork, artifacts, and other museum objects.


             Background

       Bureaus within the Department of the Interior manage museum collections that are
estimated to include over 146 million pieces of artwork, artifacts, and other museum objects.
Museum property is acquired to be preserved, studied, or interpreted for public benefit and can
include objects representing archeology, art, history, botany, zoology, paleontology, or geology.

       Because museum property is intended for long-term preservation, its management
requirements are necessarily different from the requirements of property that can be easily
replaced. Therefore, the Department's Museum Property Handbook defines seven preservation
categories for use in protecting museum property: storage, environment, security, fire protection,
housekeeping, planning, and staffing.

        On December 16, 2009 we issued a report titled "Department of the Interior Museum
Collections" (Report No. C-IN-MOA-001O-2008). The review found that the Department was a
poor steward of these museum collections and could take additional steps to improve
preservation and protection of museum collections. To assess the adequacy of the Department's
preservation practices, we developed a 44 question checklist assessing the seven preservation
areas identified in the Department's guidance. Using this checklist, we visited nine NPS sites and
                                                • 1• •
completed the checklist based on both our observations and interviews with museum personnel.
We also received self-reported checklists from an additional eight NPS sites. This report
provides you with specific results for the NPS sites.


       Results of Inspection

        Overall, we found NPS could take steps to improve the preservation practices at NPS
sites included in this review. See Appendix. While some sites had only a small number of
deficiencies, others had numerous
                                                                           Percentage of Checklist
deficiencies in multiple categories. For        Site
                                                                           Items with Deficiencies
example, two sites had deficiencies in less
                                                Arlington House                      2%
than 5 percent of the preservation controls
                                                Boston NHS                          57%
we inspected. In contrast, two other sites
had deficiencies in more than half of the       Ft. Union NM                         9%
preservation controls, with one having          Great Falls Park                    20%
deficiencies in 80 percent of the controls      Hagerman Fossil Beds NM             16%
inspected. Overall, all seventeen NPS sites     Minidoka Internment NM              16%
(100 percent) had one or more deficiencies.     Northeast Museum                     7%
Even one deficiency could jeopardize
                                                Petroyglyph NM                       2%
museum objects and result in irreparable
harm, irreversible damage, or loss of the       Whiskeytown NRA                     48%
item. Specifically:                             Acadia National Park                 7%
                                                Alaska Regional Center                5%
       Storage space was not safe from         Ft. Union Trading Post NHS            14%
       flooding. For example, at the Fort      Ft. Vancouver NHS                     11%
       Union Trading Post National
                                               Golden Gate NRA                       80%
       Historic Site in Williston, ND we
       observed water pipes running            Lewis and Clark NHP                   11%
       directly over the museum property       South Florida CMC                     11%
       storage cabinets that were not          Western Archaeological                23%
       waterproof. In addition, there was
       evidence of past ceiling water damage in another storage area.




                                                 2
           Museum property was not safeguarded from overcrowding, breakage, or cross-
           contamination. For example, at the
           Boston National Historic Park in
           Charlestown, MA we observed one
           dimly lit, cluttered, and disorganized
           storage room which contained various
           large historic items. Items continued
           to be added to the room despite open
           space available elsewhere. In another
           location, items such as antique
           furniture, carts, and bicycles were
           stacked on top of each other or were
           leaning against one another without
           protection.

            Pest control devices not always used and/or contents analyzed. For example, at the
           Whiskeytown National Recreational Area in Whiskeytown, CA we observed that the site
           did not have pest management control devices in an exhibit area that displayed historic
           furniture. Pest control devices are necessary to prevent pests from destroying the artifacts.
           Staff indicated the pest management controls were removed from the site due to the large
           volume of pests being trapped and they were unable to keep up with removing the pests
           being caught.

           Light not appropriately controlled resulting in potential damage to museum
           property. For example, at the Boston National Historic Park in Charlestown, MA the
           museum curator acknowledged that
           the visitor’s center needs to be re-
           lighted because lights used in the
           visitor’s center are inappropriate
           for the artifacts. For example, an
           old ship rope was displayed
           directly under track lighting,
           leading to the potential for
           premature deterioration.


           Museum property was not safeguarded against fire. For example, at the Hagerman
           Fossil Beds National Monument in Hagerman, ID we observed
           the lack of fire detection and suppression systems despite having
           radioactive material present.1 Additionally, at the Arlington
           House in Arlington, VA we observed that neither the museum
           nor the site’s annex had fire detection or suppression systems
           that housed paintings, furniture, books and textiles. Fire
           suppression had been slated to be installed in the museum
           building in FY 2006; however, this did not occur.
1
    While radioactive material is not flammable, it poses a serious risk to rescue personnel in the event of a fire.
                                                              3
        Because the preservation of the collections at many NPS sites has been neglected,
countless artwork, artifacts, and other museum objects are in jeopardy. Identified deficiencies
could jeopardize museum objects and result in irreparable harm, irreversible damage, or loss of
the item.


        Recommendations

       We recommend that the Director, National Park Service, ensure that a plan is developed
and implemented to:

       Recommendation 1. Correct and/or mitigate, to the greatest extent possible, all
       identified deficiencies at the seven sites identified in this report.

       Recommendation 2. Inspect all remaining NPS sites that house museum collections and
       correct and/or mitigate, to the greatest extent possible, all identified deficiencies.

        We would appreciate being kept apprised of the actions planned, or taken, on our
recommendations as we will track the status of their implementation. We ask that you inform us
of the planned course of action of the recommendations within 30 days.

       If you have any comments or questions regarding this advisory, please call me at
(303) 236-9243.




                                                4
                                                                                                                                                                               Appendix

                                                                                                                      Observed




                                                                                                                                                          Northeast Museum
                                                                              Ft. Union National
                                                                               Monument (NM)




                                                                                                                        Hagerman Fossil
                                                                                                   Great Falls Park
                                          Arlington House

                                                            Boston National




                                                                                                                                          Internment NM


                                                                                                                                                           Services Center

                                                                                                                                                                             Petroglyph NM


                                                                                                                                                                                             Whiskeytown
                                                             Historic Park




                                                                                                                                             Minidoka
                                                                                                                           Beds NM




                                                                                                                                                                                                NRA
       No Deficiencies Noted

   X   Deficiencies Noted

   %   Percentage of Deficiencies Noted

STORAGE                                   0%                69%               15%                  0%                  15%                15%              0%                  0%            38%
1. Safe from flooding.                                          X                                                                                                                               X
2. Appropriately insulated.                                     X                                                                                                                               X
3. Appropriate space.                                           X                                                           X                X
4. Sufficient space.                                                                                                        X                X                                                  X
5. Adequate storage cabinets.                                   X                  X
6. Cabinets not over-stacked.                                   X
7. Open shelving safe.                                                                                                                                                                          X
8. Stacked items protected.                                     X
9. Earthquake safe.                                                                                                                                                                             X
10. No overcrowding.                                            X                  X
11. Secure exhibit cases.                                       X
12. Appropriate exhibit cases.
13. Properly framed artwork.                                    X
ENVIRONMENT                               0%                56%                0%                  67%                 33%                33%             11%                  0%            67%
14. Temperature & humidity
                                                                X                                   X                       X                X
monitored.
15. Observations recorded.                                      X                                   X                       X                X                X                                 X
16. Observations permanently saved.                                                                 X                                                                                           X
17. Observations analyzed.                                                                          X                                                                                           X
18. Hygrothermographs maintained.                               X                                                                                                                               X
19. Outside light appropriately
controlled.
20. Artwork away from vents.
21. Pest control devices used.                                  X                                   X                                                                                           X
22. Type of pests analyzed.                                     X                                   X                       X                X                                                  X
SECURITY                                  0%                75%                0%                  0%                    0%                0%             13%                  0%            50%
23. Appropriate staff have keys.                                X                                                                                                                               X
24. Keys are controlled.                                        X
25. Visitors escorted.                                          X                                                                                                                               X
26. Visitors sign in.                                           X                                                                                             X                                 X
27. Closing procedures documented.
28. Alarm systems maintained.                                   X                                                                                                                               X
29. Sensitive items stored separately.
30. Irreplaceable items guarded.                                X



                                                                              5
                                                                                                                                                     Appendix

                                                                                                    Self-Reported




                                                                                                                                                                     Conservatory Center
                                                                                 Trading Post NHS




                                                                                                                                   Lewis and Clark
                                                               Alaska Regional
                                             Acadia National




                                                                                                    Fort Vancouver




                                                                                                                                                                      Archaeological &
                                                                                                                                                     South Florida
                                                                                                                     Golden Gate
                                                                                    Fort Union
                                                                 Curatorial




                                                                                                                                                                          Western
                                                                   Center




                                                                                                                                                        CMC
                                                                                                                        NRA
                                                  Park




                                                                                                                                        NHP
                                                                                                         NHS
          No Deficiencies Noted

      X   Deficiencies Noted

      %   Percentage of Deficiencies Noted

STORAGE                                       8%                 15%             31%                15%              100%          23%               31%             46%
1. Safe from flooding.                                                               X                                  X              X
2. Appropriately insulated.                                                                                             X
3. Appropriate space.                                                                                                   X              X                                  X
4. Sufficient space.                                                                 X                  X               X              X                X                 X
5. Adequate storage cabinets.                                                        X                                  X                                                 X
6. Cabinets not over-stacked.                                                                                           X
7. Open shelving safe.                                                                                                  X
8. Stacked items protected.                                                                                             X                                                 X
9. Earthquake safe.                                                 X                                   X               X                                                 X
10. No overcrowding.                                                                                                    X                                                 X
11. Secure exhibit cases.                                                                                               X                               X
12. Appropriate exhibit cases.                   X                  X                X                                  X                               X
13. Properly framed artwork.                                                                                            X                               X
ENVIRONMENT                                   0%                  0%             22%                11%              89%           11%                0%             11%
14. Temperature & humidity
                                                                                                                        X                                                 X
monitored.
15. Observations recorded.                                                                              X               X
16. Observations permanently saved.                                                                                     X
17. Observations analyzed.                                                                                              X
18. Hygrothermographs maintained.                                                                                       X
19. Outside light appropriately
                                                                                                                        X              X
controlled.
20. Artwork away from vents.
21. Pest control devices used.                                                       X                                  X
22. Type of pests analyzed.                                                          X                                  X
SECURITY                                      0%                  0%              0%                13%              100%           0%               13%             13%
23. Appropriate staff have keys.                                                                                        X
24. Keys are controlled.                                                                                                X
25. Visitors escorted.                                                                                  X               X
26. Visitors sign in.                                                                                                   X                                                 X
27. Closing procedures documented.                                                                                      X                               X
28. Alarm systems maintained.                                                                                           X
29. Sensitive items stored separately.                                                                                  X
30. Irreplaceable items guarded.                                                                                        X



                                                                       6
                                                                                                                                                                                 Appendix

                                                                                                                        Observed




                                                                                                                                                            Northeast Museum
                                                                               Ft. Union National
                                                                                Monument (NM)




                                                                                                                          Hagerman Fossil
                                                                                                     Great Falls Park
                                           Arlington House

                                                             Boston National




                                                                                                                                            Internment NM


                                                                                                                                                             Services Center

                                                                                                                                                                               Petroglyph NM


                                                                                                                                                                                               Whiskeytown
                                                              Historic Park




                                                                                                                                               Minidoka
                                                                                                                             Beds NM




                                                                                                                                                                                                  NRA
        No Deficiencies Noted

   X    Deficiencies Noted

   %    Percentage of Deficiencies Noted

FIRE PROTECTION                            20%               40%                0%                  0%                   20%                20%             20%                  0%            40%
31. Fire detection and suppression.         X                    X                                                            X                X                                                  X
32. Fire extinguishers.                                                                                                                                                                           X
33. Staff trained on fire extinguishers.                                                                                                                        X
34. Fire suppression systems clear.
35. No flammable liquids.                                        X
HOUSEKEEPING                               0%                50%                0%                  0%                     0%                0%              0%                  0%            50%
36. Housekeeping performed.                                      X                                                                                                                                X
37. Written rules on housekeeping.                               X                                                                                                                                X
38. Housekeepers trained.
39. Smoking & eating prohibited.
PLANNING                                   0%                33%               67%                  100%                 33%                33%              0%                33%             67%
40. Written plan.                                                                                    X                                                                                 X
41. Assessment of property.                                      X                  X                X                        X                X                                                  X
42. Plan to evacuate property.                                                      X                X                                                                                            X
STAFFING                                   0%                 0%                0%                  0%                     0%                0%              0%                  0%            0%
43. Staff assigned responsibilities.
44. Staff have been trained.
ADDITIONAL DOCUMENTS
1. Checklist Report
2. Basic Security Protection Report                                                                  X                        X                X                                       X          X
3. Fire Protection Plan                                                             X                X                        X                X                                       X          X
4. Integrated Pest Management Plan                               X                                   X                        X                X                X                      X          X
5. Environmental Control Plan                                                       X                X                        X                X                                                  X
6. Annual Emergency Management
                                                                 X                                   X                                                          X                                 X
Plan
7. Current Collection Storage Plan                               X                  X                X                        X                X                                       X
8. Written Handling Procedures                                   X                                                                                                                     X




                                                                               7
                                                                                                                                                      Appendix

                                                                                                     Self-Reported




                                                                                                                                                                      Conservatory Center
                                                                                  Trading Post NHS




                                                                                                                                    Lewis and Clark
                                                                Alaska Regional
                                              Acadia National




                                                                                                     Fort Vancouver




                                                                                                                                                                       Archaeological &
                                                                                                                                                      South Florida
                                                                                                                      Golden Gate
                                                                                     Fort Union
                                                                  Curatorial




                                                                                                                                                                           Western
                                                                    Center




                                                                                                                                                         CMC
                                                                                                                         NRA
                                                   Park




                                                                                                                                         NHP
                                                                                                          NHS
           No Deficiencies Noted

       X   Deficiencies Noted

      %    Percentage of Deficiencies Noted

FIRE PROTECTION                               20%                  0%              0%                 0%              40%            0%                0%               0%
31. Fire detection and suppression.                                                                                      X
32. Fire extinguishers.
33. Staff trained on fire extinguishers.
34. Fire suppression systems clear.
35. No flammable liquids.                         X                                                                      X
HOUSEKEEPING                                   0%                  0%              0%                 0%              75%            0%                0%               0%
36. Housekeeping performed.                                                                                              X
37. Written rules on housekeeping.                                                                                       X
38. Housekeepers trained.
39. Smoking & eating prohibited.                                                                                         X
PLANNING                                      33%                  0%              0%                33%              33%           33%                0%             67%
40. Written plan.
41. Assessment of property.                                                                              X               X              X                                  X
42. Plan to evacuate property.                    X                                                                                                                        X
STAFFING                                       0%                  0%              0%                 0%              0%             0%                0%               0%
43. Staff assigned responsibilities.
44. Staff have been trained.
ADDITIONAL DOCUMENTS
1. Checklist Report
2. Basic Security Protection Report               X                                                                      X                                                 X
3. Fire Protection Plan                           X                                                                      X
4. Integrated Pest Management Plan                                                                                       X              X                                  X
5. Environmental Control Plan                     X                  X                                   X               X                                                 X
6. Annual Emergency Management
                                                  X                                                                      X              X
Plan
7. Current Collection Storage Plan                                   X                                   X               X
8. Written Handling Procedures                                                                                           X




                                                                        8
Report Fraud, Waste, Abuse
   And Mismanagement
           Fraud, waste, and abuse in
       government concerns everyone:
       Office of Inspector General staff,
      Departmental employees, and the
      general public. We actively solicit
       allegations of any inefficient and
     wasteful practices, fraud, and abuse
   related to Departmental or Insular area
  programs and operations. You can report
       allegations to us in several ways.




   By Mail:    U.S. Department of the Interior
               Office of Inspector General
               Mail Stop 4428 MIB
               1849 C Street, NW
               Washington, D.C. 20240

   By Phone:   24-Hour Toll Free 800-424-5081
               Washington Metro 703-487-5435

   By Fax:     703-487-5402

   By          www.doioig.gov/hotline
   Internet:
